No. 20-5378

IN THE
SUPREME COURT OF THE UNITED STATES
_________________
JAMES LYNN STYERS,
Petitioner,
v.
DAVID SHINN, Warden, et. al.
Respondents.
_________________
Reply in Support of Petition for Writ of Certiorari
To the United States Court of Appeals for the Ninth Circuit
__________________
JULIE S. HALL*
779 S CODY LOOP RD
ORACLE, AZ 85623
(520) 896-2890
AMY B. KRAUSS
PO BOX 65126
TUCSON, AZ 85728
520 400-6170
Attorneys for Petitioner
*Counsel of Record

INTRODUCTION TO REPLY
Respondents begin their response with a recitation of the facts leading to Mr.
Styers’ conviction and death sentence. They go on to detail the lengthy procedural history
of his case and, along the way, dispute the holding of the Ninth Circuit Court of Appeals
which found that the Arizona Supreme Court applied an unconstitutional nexus test to
Mr. Styers’ evidence of Post-Traumatic Stress Disorder, in violation of the Eighth
Amendment.1 See Clemons v. Mississippi, 494 U.S. 738, 748-49 (1990); Eddings v.
Oklahoma, 455 U.S. 104, 115 (1982). Styers v. Schriro, 547 F.3d 1026, 1034-35 (9th Cir.
2008) (“Styers II”). Respondents’ also convey their irritation that Mr. Styers has sought
Supreme Court review of his case numerous times in the decades since his conviction and
sentence. All of this, it is plain to see, is designed to convince this Court that the crime
was so heinous that Mr. Styers’ arguments should be given short shrift, that there is no
arguable doubt about the correctness of his convictions and sentence, and that he has had
more than enough due process. Respondents are exasperated with Mr. Styers and they
hope this Court is, too.
The issues now before this Court, however, did not arise until at least 2011, when
the Arizona Supreme Court invented a new kind of independent review after the Ninth
Circuit reversed Mr. Styers’ death sentence. State v. Styers, 227 Ariz. 186, 254 P.3d 1132
(2011) (en banc) (“Styers III”). The constitutionality of that novel procedure was

1

Apparently, Respondents likewise dispute the Ninth Circuit’s en banc conclusion that the
Arizona Supreme Court, for a period of more than fifteen years, consistently violated Eddings in
its capital sentencing analysis by requiring a defendant to show a causal nexus between his
proffered mitigation evidence and the crime. McKinney v. Ryan, 813 F.3d 798, 802, 815-16 (9th
1

affirmed in just the past term. McKinney v. Arizona, __ U.S. __, 140 S.Ct. 702 (2020).
The first question presented in this petition addresses an issue left open in McKinney; that
is, whether on independent review of an overturned death sentence due to the failure to
appropriately consider mitigating evidence, the state court may, without offending the
Eighth Amendment, limit its consideration of mitigation evidence to only that which was
previously erroneously omitted rather than considering all of the mitigation presented at
the time of the independent review when a sentence of life or death is selected. See Cert.
Pet. at ii. That question was not answered in the Circuit Court below because it refused to
grant a certificate of appealability, after applying a standard that conflicts with this
Court’s decision in Buck v. Davis, __ U.S. __, 137 S.Ct. 759 (2017), and which thus
forms the basis of the second question presented in this petition. Id. Accordingly, Mr.
Styers could not have raised either of these issues sooner. Doing so now is not a tactic to
“interpose unjustified delay,” and thus provides no justification for exasperation, by
Respondents or any reviewing court. Bucklew v. Precythe, __ U.S. __, __, 139 S.Ct.
1112, 1134 (2019). It is undisputed that the mitigation underlying this claim has never
been considered by any juror or judge throughout the history of this case.
A writ of certiorari should be granted because there are compelling reasons for
doing so, as set forth in Rule 10, Rules of the United States Supreme Court: 1) Mr. Styers
has shown that the Ninth Circuit decided an important federal question in a manner that
conflicts with relevant decisions of this Court; and 2) the issues presented address
important unsettled questions of federal law that this Court should decide.
Cir. 2015).
2

ARGUMENT
Respondents agree that the Ninth Circuit found Mr. Styers’ Claim 3 (that the
Arizona Supreme Court should have considered new and additional mitigating evidence)
mooted by the decision in Styers IV. Brief in Opposition (“BIO”), pp. 9-10. Yet, the
language Respondents point to in their attempt to buttress the Ninth Circuit’s conclusion
provides no support. Id., at 10, quoting Styers IV, 811 F.3d at 298-99. There, the Ninth
Circuit’s opinion discussed only the Arizona Supreme Court’s consideration of the PTSD
mitigation evidence. The PTSD evidence was the subject of the Ninth Circuit’s first
opinion (Styers II) and, as a result, was before the Ninth Circuit in the appeal from the
district court’s refusal to grant the unconditional writ. Styers IV addressed only whether
the error identified in Styers II had been corrected by a constitutionally-sufficient process.
Mr. Styers’ present petition, and the appeal from its denial from which this petition
arises, addressed a constitutional error in the sentence independently imposed by the
Arizona Supreme Court in 2011. Thus, Respondents’ argument is that, because the Ninth
Circuit considered and decided a claim regarding the PTSD evidence, it considered and
decided a claim regarding other mitigation evidence developed over a subsequent twentyyear period, even though the Ninth Circuit did not mention the latter claim or evidence
and even though the appeal before it, because of its procedural posture, concerned only
the claim regarding the PTSD evidence. Respondents point to nothing to indicate the
Ninth Circuit decided this claim, other than the Ninth Circuit’s own reference to the
consideration of a different claim. Certainly, jurists of reason could debate whether a
3

decision on one claim is proof of a decision on another claim, making the procedural
status of this claim appropriate for a COA. Buck v. Davis, supra; Miller-El v. Cockrell, 537
U.S. 322 (2003).

Respondents do not dispute that the Arizona Supreme Court failed to comply with
Eddings when it refused to consider twenty years’ worth of mitigation. Instead,
Respondents insist the Arizona Supreme Court need not follow the Eighth and Fourteenth
Amendments in selecting a capital sentence. Respondents cite State v. Hedlund, 431 P.3d
181 (Ariz. 2018), in support of their argument that the Arizona Supreme Court was free
to ignore twenty years of mitigation in choosing between life and death for Mr. Styers.
BIO, p. 11. In Hedlund, the Arizona Supreme Court rationalized its refusal to consider
additional, new mitigation by instructing that such evidence “should be admitted first in
the trial court[.]” Yet, Mr. Styers was denied that opportunity when the state courts
refused to either remand the case for presentation of his new evidence or allow him to
proceed in state postconviction following the Arizona Supreme Court’s opinion in Styers
III. Respondents’ position that “the Arizona Supreme Court is not the sentencer and does
not receive new evidence” disregards the crux of that Court’s opinion in Styers III, the
entire foundation of which rested on the Arizona Supreme Court’s ability to be the
sentencer using its independent review function. It is impossible that the Arizona
Supreme Court is the sentencer (allowing it to avoid returning Mr. Styers’ case to the trial
court to be heard and determined by a jury), but also is not the sentencer (allowing it to
avoid the bedrock Eighth Amendment principle of Eddings: that a sentencer must be able
to consider all of the mitigation before it). That is not, as Respondents argue, a

4

“determination of state law by the state’s highest court [which] is not reviewable by this
Court.” BIO, p. 11 (citation omitted). Instead, it is a flagrant dismissal of the
requirements of the Eighth and Fourteenth Amendments.
To be clear, Mr. Styers’ argument is not that an appellate court reviewing a
sentence must permit new, additional mitigation to be presented to it. Instead, it is the
simple, long-accepted principle that, when choosing between life and death, a sentencer
(in this case, the Arizona Supreme Court) must consider all of the mitigation presented to
it. At minimum, this was a question debatable among jurists of reason and the COA
should have issued.
CONCLUSION
The petition for writ of certiorari should be granted so that this Court can clarify
that, when a state court chooses between a life and death sentence following remand from
a federal court, the Constitution requires that all mitigation presented be considered, not
merely the mitigation that was subject to the previously-identified constitutional error.
Alternatively, this Court should remand to the Ninth Circuit Court of Appeals to issue a
certificate of appealability so that court may address this question.
Respectfully submitted this 13th day of October, 2020.

____________________________
*Julie S. Hall
Amy B. Krauss
*Counsel of Record

5

CERTIFICATE OF SERVICE
I hereby certify that on this 13th day of October, 2020, one copy of the attached document
was deposited in the United States mailbox, first-class postage prepaid, and addressed to
counsel for the State of Arizona, Ginger Jarvis, Office of the Attorney General, 2005 N
Central Ave, Phoenix, AZ 85004. I further certify that all parties required to be served
have been served.

_________________________________
Julie S. Hall
Counsel for Petitioner

6

